HHS/OIG-Audit--"Review of Unfunded Pension Costs of Rocky Mountain Health Care Corporation, (A-07-96-01198)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Rocky Mountain Health Care Corporation,"
(A-07-96-01198)
February 4, 1997
Complete Text of Report is available in PDF format
(876 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of our review of Unfunded Pension
Costs of Rocky Mountain Health Care Corporation (Rocky Mountain). Rocky Mountain
did not make contributions to the pension trust fund for Plan Years 1987 through
1992. Accordingly, Rocky Mountain did not fund the pension costs identifiable
with its Medicare segment during this period. As a result, Rocky Mountain accumulated
unfunded pension costs of $543,421 as of January 1, 1996. Rocky Mountain's unfunded
pension costs includes unfunded pension costs of $31,372 attributable to Blue
Cross and Blue shield of New Mexico (New Mexico) (CIN: A-07-96-01195) as of
the January 1, 1989 merger. Rocky Mountain must separately identify and eliminate
this amount from the amortization components of future pension costs.